No. ______
In the

Supreme Court of the United States
__________________

JASON UNDERWOOD,
Petitioner,
v.
SHAWN PHILLIPS, WARDEN,
Respondent.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Sixth Circuit

__________________
PETITION FOR WRIT OF CERTIORARI
__________________

ROBERT L. SIRIANNI, JR.
Counsel of Record
BROWNSTONE, P.A.
P.O. Box 2047
Winter Park, Florida 32790
(407) 388-1900
robertsirianni@brownstonelaw.com
Counsel for Petitioner

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
This Court’s decisions in Martinez v. Ryan, 566 U.S.
1 (2012), and Trevino v. Thaler, 133 S. Ct. 1911 (2013)
held that state prisoners whose states prevented them
from raising an ineffective assistance of trial counsel
claim on direct appeal were not procedurally defaulted
from raising the ineffective assistance of trial counsel
claim in a § 2254 petition, if they were unrepresented
or had ineffective assistance of counsel during state
post-conviction relief proceedings. Relying on its recent
decision in Martinez, this Court held in Trevino that
“the failure to consider a lawyer’s ineffectiveness
during an initial-review collateral proceeding as a
potential ‘cause’ for excusing a procedural default will
deprive the defendant of any opportunity at all for
review of an ineffective-assistance-of-trial-counsel
claim.” 133 S. Ct. at 1921. In the decision below,
App. 7a-8a, the District Court incorrectly found
Underwood’s claims of ineffective assistance of postconviction counsel were meritless and could not be the
basis for habeas corpus relief.
This case presents the following questions:
1. Whether the District Court properly interpreted
Underwood’s Martinez v. Ryan claims when his
state post-conviction counsel and trial counsel were
ineffective.
2. Whether the Sixth Circuit erred in affirming the
decision of the District Court and denying
Underwood a Certificate of Appealability.

ii
PARTIES TO THE PROCEEDINGS
1. Petitioner Jason C. Underwood, a prisoner
serving a capital sentence at the South Central
Correctional Facility, was the Petitioner-Appellant in
the Court of Appeals.
2. Respondent Shawn Phillips, current Warden of
the South Central Correctional Facility, was the
Respondent-Appellee in the Court of Appeals.
3. Respondent Cherry Lindamood, former Warden
of the South Central Correctional Facility, was the
Respondent-Appellee in the District Court.
LIST OF THE PROCEEDINGS
Underwood v. Phillips
U.S. Court of Appeals
Sixth Circuit
Case No. 19-5405
Decision Date: September 12, 2019
Underwood v. Lindamood
U.S. District Court
Eastern District of Tennessee
Case No. 1:15-CV-331-HSM-SKL
Decision Date: March 19, 2019
State v. Underwood
Supreme Court for the State of Tennessee
Case No. 2007-SC-000392-MR
Decision Date: January 21, 2010

iii
Underwood v. State
Circuit Court for Bedford County
Shelbyville
Case No. 11978
Decision Date: March 7, 2014

iv
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDINGS. . . . . . . . . . . . . ii
LIST OF THE PROCEEDINGS . . . . . . . . . . . . . . . . ii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . vi
PETITION FOR A WRIT OF CERTIORARI . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATUTORY AND CONSTITUTIONAL
PROVISIONS INVOLVED. . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 2
A. Tennessee Court of Criminal Appeals . . . . . . 4
B. Tennessee Supreme Court . . . . . . . . . . . . . . . 8
C. Eastern District of Tennessee. . . . . . . . . . . . . 8
D. U.S. Sixth Circuit Court of Appeals . . . . . . . 10
REASONS FOR GRANTING THE PETITION . . . 11
I. THE DISTRICT COURT’S DENIAL OF
UNDERWOOD’S CLAIMS OF INEFFECTIVE
ASSISTANCE OF COUNSEL DIRECTLY
CONFLICTS WITH THIS COURT’S DECISION
IN MARTINEZ V. RYAN. . . . . . . . . . . . . . . . . . 11

v
II. THE SIXTH CIRCUIT INCORRECTLY
ANALYZED UNDERWOOD’S REQUEST FOR
CERTIFICATE OF APPEALABILITY TO
UPHOLD THE ERRONEOUS DECISION OF
THE DISTRICT COURT. . . . . . . . . . . . . . . . . . . 14
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
APPENDIX
Appendix A Order in the United States Court of
Appeals for the Sixth Circuit
(September 12, 2019) . . . . . . . . . . App. 1
Appendix B Memorandum Opinion and Order and
Judgment Order in the United States
District Court, Eastern District of
Tennessee at Chattanooga
(March 19, 2019) . . . . . . . . . . . . . . App. 7
Appendix C Order in the Circuit Court of Bedford
County, Tennessee
(January 14, 2011) . . . . . . . . . . . App. 55

vi
TABLE OF AUTHORITIES
CASES
Bradshaw v. Estelle,
463 U.S. 880 (1983). . . . . . . . . . . . . . . . . . . . . . . 15
Lawrence v. Chater,
516 U.S. 163 (1996). . . . . . . . . . . . . . . . . . . . . . . 15
Martinez v. Ryan,
566 U.S. 1 (2012). . . . . . . . . . . . . . . . . . . . . passim
Middleton v. McNeil,
541 U.S. 433 (2004). . . . . . . . . . . . . . . . . . . . 13, 14
Miller-El v. Cockrell,
537 U.S. 322 (2003). . . . . . . . . . . . . . . . . . . . 15, 16
Slack v. McDaniel,
529 U.S. 473 (2000). . . . . . . . . . . . . . . . . . . . . . . 15
Sutton v. Carpenter,
745 F.3d 787 (6th Cir. 2014). . . . . . . . . . . . . . . . 12
Thorne v. Holloway,
No. 3:14-CV-0695, 2014 WL 4411680
(M.D. Tenn. Sept. 8, 2014), aff’d sub nom.
Thorne v. Lester, 641 F. App’x 541 (6th Cir. 2016)
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12, 14
Trevino v. Thaler,
133 S. Ct. 1911 (2013). . . . . . . . . . . . . . . . . . . . . 11

vii
STATUTES
28 U.S.C. § 1254 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 2253 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
28 U.S.C. § 2253(c) . . . . . . . . . . . . . . . . . . . . . . . . . . 15
28 U.S.C. § 2253(c)(2). . . . . . . . . . . . . . . . . . . . . 15, 16
28 U.S.C. § 2254 . . . . . . . . . . . . . . . . . . . . . . 11, 13, 15
28 U.S.C. § 2254(d)(1) . . . . . . . . . . . . . . . . . . . . . . . . 1

1
PETITION FOR A WRIT OF CERTIORARI
Jason C. Underwood respectfully petitions for a
Writ of Certiorari to review the judgment of the District
Court for the Eastern District of Tennessee denying
federal habeas relief and a certificate of appealability,
as affirmed by the Sixth Circuit Court of Appeals.
OPINIONS BELOW
The opinion of the Sixth Circuit declining to issue a
certificate of appealability is unpublished. App. 1a – 6a.
The opinion of the District Court denying the Petitioner
federal habeas relief can be found as Underwood v.
Lindamood, 1:15-cv-331-HSM-SKL, 2019 WL 1261116,
at *1 (E.D. Tenn. March 19, 2019). App. 7a – 54a.
JURISDICTION
The Sixth Circuit entered its judgment on
September 12, 2019. App. 1a. This Court has
jurisdiction pursuant to 28 U.S.C. § 1254.
STATUTORY AND
CONSTITUTIONAL PROVISIONS INVOLVED
28 U.S.C. § 2254(d)(1)
(d) An application for a writ of habeas corpus on
behalf of a person in custody pursuant to the
judgment of a State court shall not be granted
with respect to any claim that was adjudicated
on the merits in State court proceedings unless
the adjudication of the claim—

2
(1) resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly
established Federal Law, as determined by the
Supreme Court of the United States . . . .
STATEMENT OF THE CASE
In 2006, Petitioner Jason C. Underwood was found
guilty of two counts of first degree murder and one
count of theft of property at a trial by jury and
sentenced to two life sentences without parole.
App. 1a. Underwood’s arrest and conviction stem from
the morning of Monday, October 25, 2004, when the
bodies of Anthony Baltimore and his live-in girlfriend,
Rebecca Ray, were discovered inside their residence.
Id. at 8a. The bodies of both victims bore multiple stab
wounds, with blood found throughout the residence.
Id. Baltimore’s 1993 GMC pickup was also missing
from the residence. Id.
Detectives dispatched to the crime scene noticed no
sign of forced entry to the door. Id. at 9a. No suspects
were identified from the initial investigation of the
crime scene. Id. at 11a. During the course of
investigation, detectives on the case learned that the
victims were both involved in drugs, and that they had
“stiffed” people in drug transactions. Id. At trial, a
witness revealed that the victims were known to use
cocaine and marijuana. Id. It was also revealed that
Baltimore worked for a roofing company and was
physically strong, while Ray would often “get physical”
with both men and women and “didn’t back down from
anybody.” Id. at 11a.

3
Authorities also learned through their investigation
that the victims might have purchased drugs from an
individual named “OD” and/or a man named Greg
Marlin. Id. OD’s house was three-tenths of a mile
from the location where Baltimore’s stolen pickup truck
was found. Id. at 11a. DNA recovered from beer cans
at the crime scene matched that of a man named
Charles Oldfield. Id. at 11a.
On November 10, 2004, law enforcement connected
the homicide to Underwood when Darrin Shockey, a
forensic scientist for the Tennessee Bureau of
Investigation, purported to match a latent print found
in blood on a doorknob at the crime scene to
Underwood’s App. 12a. Shockey testified that he also
matched three fingerprints from a coffee mug found on
the living room table at the crime scene to Underwood.
Id. at 13a. Shockey stated that he used detailed photos
of a hand print preserved in blood on Ray’s left calf and
compared it with Underwood’s latent palm print,
concluding that Underwood had touched Ray’s calf. Id.
at 13a. Shockey conceded, however, that this was his
first time analyzing latent fingerprints preserved in
blood from a human body. App. 13a. Shockey was
further unable to match the latent prints on
Baltimore’s stolen pickup to either the victims or
Underwood. Id. at 13a.
Following a five-day jury trial, the jury found
Underwood guilty on all counts and unanimously
sentenced him to imprisonment for life without the
possibility of parole on both counts of first-degree
murder. Id. at 18a. The trial court ordered the
sentences to run consecutively. Id. at 18a.

4
A. Tennessee Court of Criminal Appeals
After his motion for a new trial was denied,
Underwood appealed his convictions and sentences. Id.
at 19a. On December 10, 2008, the Tennessee Court of
Criminal Appeals affirmed. State v. Underwood, No.
M2006-01826-CCA-RS-CD, 2008 WL 5169573, at *1
(Tenn. Crim. App. Dec. 10, 2008). Underwood did not
seek permission to appeal that decision. Id. at 19a.
Underwood filed a pro se petition for State habeas
corpus relief, which was dismissed on July 30, 2008.
App. 19a. Counsel was appointed to assist Underwood
on December 21, 2009, and privately retained counsel
Russell Leonard was substituted on May 17, 2010.
App. 19a. On July 23, 2010, newly-retained counsel
filed a writ of error coram nobis and an amended
petition for post-conviction relief on July 26, 2010.
App. 19a. On September 24, 2010 and November 15,
2010, an evidentiary hearing was held on the motions,
along with a motion for DAN analysis. App. 19a.
At the evidentiary hearing, Underwood’s initial
counsel, Fannie Harris, testified that she was a
criminal defense attorney whose firm was briefly
retained to represent Underwood, and that she met
with her client, police officers, and the ADA on
February 25, 2005, where Underwood gave a statement
to officers Id. She stated that she did not invoke the
protections of Rule 11 prior to that meeting, which
would have protected the statements as confidential
statements made during plea negotiations, and that
she did not ask that Underwood receive immunity or
protections from any statement he gave Id. at 19a-20a.
Harris eventually withdrew as counsel after

5
Underwood’s mother filed a complaint against her with
the Board of Professional Responsibility (“BPR”) Id. at
20a. Harris acknowledged that the BPR had censured
her after she incorrectly responded to the complaint
that she had not allowed Underwood to give an
interview with the ADA on February 25, 2005, but she
maintained that she had never seen the tape of the
interview and believed at the time she responded to the
complaint that the interview had not occurred Id.
Harris testified that she received the State’s discovery
at the conclusion of the interview, conceding that she
had not seen it prior to setting up the meeting Id.
Harris stated that she gave all discovery in the case to
her investigator, who had never returned it but who
had proven “diligent” in working with other attorneys
in the law firm. Id.
Harris testified that she had known Underwood
prior to this crime, and that she agreed to set up a
meeting with Underwood, the police, and the ADA,
where Underwood could tell the truth about what had
happened the night of the murders. Id. She stated that
she believed Underwood’s steadfast declaration of
innocence that he had only confessed out of fear, and
that he wanted to tell the police who committed the
murders. App. 20a-21a. While testifying, Harris
recalled that she did attempt to request Rule 11
protections prior to the meeting, but that the ADA
refused to offer any protections. App. 21a. Harris
stated that, eventually, an understanding was reached
that Underwood would tell the truth, the ADA would
investigate it and see if he could corroborate it, and
perhaps the information would help Underwood when
they reached the stage of plea negotiations. Id. at 21a.

6
Harris testified that she would not have set up the
meeting if she had thought that Underwood was going
to make incriminating statements. Id. at 21a.
Pre-trial counsel, Hershell Koger, represented
Underwood after Harris withdrew. Id. Koger testified
that he remembered watching the February 25, 2005,
video of Underwood’s meeting and seeing the State
hand over the initial discovery at the end of the
meeting. Id.
He filed a motion to suppress
Underwood’s statement from the interview, recalling
that one of the bases was ineffective assistance of
counsel, as Harris had scheduled the interview before
receiving discovery from the District Attorney’s office.
Id. He stated it was “almost always a bad idea” to let a
defendant talk to the District Attorney. Id. Koger
stated that there was some “clever defense thinking” on
the part of trial counsel for deciding not to pursue the
motion to suppress the February 25, 2005 statement,
although he could not recall what the strategy was. Id.
Trial counsel, Robert Marlow, testified that he did
not pursue the motion to suppress the February 25,
2005 statement because it would have raised an issue
of ineffective assistance of counsel, which is generally
improper to raise during trial or on direct appeal.
App. 22a. Marlow stated that during the February 25,
2005 interview, Underwood claimed to have been
present at the scene with other participants but denied
touching Ray’s body.
Id. Marlow stated that
Underwood claimed that he had no open wounds and
could not have left his blood at the scene, conceding
that there were “major inconsistencies” between
Underwood’s statements during the February 25, 2005

7
interview and the scientific evidence. Id. Marlow
maintained that it would have been ineffective not to
try to have the February 25, 2005 conversation covered
under Rule 11 but admitted he had never asked the
ADA to consider an interview with a defendant under
Rule 11. Id.
Following Marlow’s testimony, the post-conviction
hearing was continued to November 15, 2010.
Underwood testified on that date. Id. at 22a. He stated
that he had been wrongfully convicted, and that others
were responsible for the murders. Id. He stated he did
not testify at trial because his family was threatened
by the actual perpetrators of the crime. Id.
Following the hearing, the trial court orally denied
the writ of error coram nobis, the motion for DNA
analysis, and the petition for post-conviction relief. Id.
On January 14, 2011, the post-conviction court entered
a written order containing factual findings to support
the denials. App. 22a-23a.
On January 27, 2014, three years after the postconviction court entered its order denying relief,
Underwood moved to file an untimely appeal that was
later accepted. App. 23a. On June 5, 2015, the
Tennessee Court of Criminal Appeals affirmed the
post-conviction court’s denial of relief. Underwood v.
State, No. M2014-00159-CCA-R3-PC, 2015 WL
3533718, at *2 (Tenn. Crim. App. June 5, 2015), perm.
app. denied (Tenn. Sept. 17, 2015) (“Underwood II”).

8
B. Tennessee Supreme Court
On September 17, 2015, the Tennessee Supreme
Court denied Underwood’s application for permission
to appeal. App. 23a.
C. Eastern District of Tennessee
On December 7, 2015, Underwood filed a pro se
petition for federal habeas relief that this Court
subsequently ordered Underwood to amend. App. 23a.
Underwood filed his amended petition on or about
February 16, 2016, raising the following grounds for
relief, as paraphrased by the Court:
Claim 1: Trial counsel, Robert Marlow, rendered
ineffective assistance of counsel when he failed
to (a) subpoena and present exculpatory
witnesses, and (b) debunk and rebut the
prosecutor’s theory.
Claim 2: Trial counsel, Robert Marlow, rendered
ineffective assistance of counsel when he failed
to (1) challenge the State’s suppression of
evidence, and (b) diligently investigate the
State’s Brady violation.
Claim 3: Trial counsel, Robert Marlow, rendered
ineffective assistance of counsel when he failed
to (a) properly obtain crime scene evidence
experts, and (b) utilize and develop exculpatory
expert evidence regarding the blood splatter.
Claim 4: Trial counsel, Robert Marlow, rendered
ineffective assistance of counsel when he failed
to properly obtain an expert to challenge the

9
voluntariness and admissibility of Underwood’s
confessions.
Claim 5: Trial counsel, Robert Marlow, rendered
ineffective assistance of counsel when he failed
to put on adequate supporting evidence and
argue that Underwood was entitled to lesserincluded offense instructions.
Claim 6: Trial counsel, Robert Marlow, rendered
ineffective assistance of counsel when he failed
to properly argue that the evidence was
insufficient to establish first-degree murder.
Claim 7: Trial counsel, Robert Marlow, rendered
ineffective assistance of counsel when he failed
to put on adequate supporting evidence and
argue that the admission of prior bad acts
violated Underwood’s due process rights.
Claim 8: Trial counsel, Robert Marlow, rendered
ineffective assistance of counsel when he failed
to properly challenge the admissibility of
Underwood’s incriminating statements.
Claims 9-10: The trial court erred in
“dismissing” appointed counsel, Hershell Koger,
instead of having him assist the counsel retained
by Underwood’s family.
Claims 11-12: Pre-trial counsel, Fannie Harris,
rendered ineffective assistance of counsel when
she failed to provide adequate protections to
Underwood during his February 25, 2005,
interview with the Assistant District Attorney.

10
Claim 13: Trial counsel, Robert Marlow,
rendered ineffective assistance of counsel when
he failed to properly challenge the court’s
“disqualification” of Counsel Koger and the
failure to appoint counsel.
Claims 14-15: The trial court erred in denying
Underwood’s request for a continuance.
Claims 16-17: The trial court erred in denying
Underwood’s request for funds to hire expert
witnesses.
Id. at 23a-26a. The District Court found Underwood’s
claims to be without merit, denying both habeas relief
and a certificate of appealability. Id. at 7a-54a.
D. U.S. Sixth Circuit Court of Appeals
The Sixth Circuit affirmed the District Court’s
denial of a certificate of appealability based upon an
erroneous application of Martinez v. Ryan, 566 U.S. 1
(2012). App. 3a. The Sixth Circuit agreed with the
District Court’s determination that Underwood’s claims
“were meritless and without factual support and
therefore could not be the basis for habeas corpus
relief.” Id. at 3a.
This petition for writ of certiorari arises from the
error of both the District Court and the Sixth Circuit of
incorrectly applying this Court’s jurisprudence in
Martinez v. Ryan, 566 U.S. 1 (2012).

11
REASONS FOR GRANTING THE PETITION
I. THE DISTRICT COURT’S DENIAL OF
UNDERWOOD’S CLAIMS OF INEFFECTIVE
ASSISTANCE OF COUNSEL DIRECTLY
CONFLICTS WITH THIS COURT’S DECISION
IN MARTINEZ V. RYAN.
In Martinez v. Ryan, 132 S. Ct. 1309 (2012), and
Trevino v. Thaler, 133 S. Ct. 1911 (2013), this Court
has held that state prisoners, whose states prevented
them from raising an ineffective assistance of trial
counsel claim on direct appeal were not procedurally
defaulted from raising the ineffective assistance of trial
counsel claim in a § 2254 petition, if they were
unrepresented or had ineffective assistance of counsel
during state post-conviction relief proceedings. Relying
on its recent decision in Martinez, this Court in Trevino
held that “the failure to consider a lawyer’s
ineffectiveness during an initial-review collateral
proceeding as a potential ‘cause’ for excusing a
procedural default will deprive the defendant of any
opportunity at all for review of an ineffectiveassistance-of-trial-counsel claim.” 133 S. Ct. at 1921.
Accordingly, the Court found that the Petitioner had
not procedurally defaulted and was not barred from
bringing the § 2254 petition. Id.
In this case, the District Court correctly found that
although the claims raised by Underwood in Claims 17, and partially Claim 13, were never raised in any
State-court proceeding, they were to be analyzed

12
pursuant to the Martinez exception.1 App. 32a-33a.
Although the District Court correctly recognized that
Martinez applied to Underwood’s claims, the court
erred in its subsequent analysis of those claims by
holding that his claims must satisfy the requirements
of an unpublished case from the Middle District of
Tennessee, Thorne v. Holloway2, rather than the
traditional Martinez analysis. Id.
The District Court determined that, pursuant to
Thorne, it was “more efficient for the [district] court to
consider in the first instance whether the alleged
underlying ineffective assistance of counsel was
‘substantial’ enough to satisfy the ‘actual prejudice’
prong of Coleman,” because the issue of whether postconviction counsel rendered ineffective assistance is
“necessarily connected to the strength of the argument
that trial counsel’s assistance was ineffective.” App.
33a. Accordingly, the District Court’s analysis of
Underwood’s Martinez claims strayed completely from
the framework set forth in Martinez and instead
focused entirely on the prejudice of the ineffective
assistance of trial counsel. Such analysis directly
conflicts with this Court’s decision in Martinez and

1

In support, the District Court cited Sutton v. Carpenter, 745 F.3d
787, 795-96 (6th Cir. 2014), in which the court held that the
Martinez exception is applicable in Tennessee because defendants
are directed to file ineffective assistance claims in post-conviction
rather than on direct appeal.
2

No. 3:14-CV-0695, 2014 WL 4411680, at *23 (M.D. Tenn. Sept. 8,
2014), aff’d sub nom. Thorne v. Lester, 641 F. App’x 541 (6th Cir.
2016).

13
served only to deny Underwood of his rights under the
Sixth Amendment.
Further, the District Court held, and the Sixth
Circuit affirmed, that Underwood’s claims that
survived the incorrect application of Martinez were to
be dismissed as they did not have merit. This is again
a gross misapplication of established federal law.
Underwood’s § 2254 petition included claims of
ineffective assistance of counsel related to improper
jury instructions, lesser included offenses, and jury
confusion. These claims were again improperly denied
by the District Court based upon an erroneous
application of Martinez and a complete disregard for
this Court’s decision in Middleton v. McNeil, 541 U.S.
433 (2004). In Middleton, this Court held that, “in a
criminal trial, the State must prove every element of
the offense, and a jury instruction violates due process
if it fails to give effect to that requirement.” Id. at 437.
Although not every deficiency in jury instruction rises
to the level of a due process violation, “the question is
whether the ailing instruction so infected the entire
trial that the resulting conviction violates due process.”
Id. “A single instruction to a jury may not be judged in
artificial isolation, but must be viewed in the context of
the overall charge.” Id.
Here, a review of the totality of the circumstances
at trial shows that the jury in Underwood’s case was
not sufficiently aware of the mens rea required for
complicity or murder. Id. In light of the prosecutor’s
closing argument at trial, the error in jury instructions
was not harmless and resulted in confusion of the
jurors. In Middleton, this Court found that federal law

14
does not prohibit a state appellate court form assuming
that a prosecutor’s argument clarifies an ambiguous
jury charge. Id. at 483. Here, Underwood can show
that the prosecutor’s closing argument altered the
decision of the jury and provided the wrong analysis for
the fact that, at best, there may have been the
elements of manslaughter, but there was no showing of
the requisite intent.
Given the differences in the District Court’s
application of Martinez and Thorne, as well as the
court’s failure to recognize Middleton, this Court
should grant certiorari to clarify the appropriate
standard and rectify the constitutional errors of the
District Court.
II. THE SIXTH CIRCUIT INCORRECTLY
ANALYZED UNDERWOOD’S REQUEST FOR
CERTIFICATE OF APPEALABILITY TO
UPHOLD THE ERRONEOUS DECISION OF
THE DISTRICT COURT.
In its evaluation of Underwood’s request for a
certificate of appealability, The Sixth Circuit uniformly
found that Underwood’s claims of ineffective assistance
were procedurally defaulted due to post-conviction
counsel’s failure to raise them in the post-conviction
proceeding. Further, the Sixth Circuit supported its
findings of procedural default by stating that
Underwood’s claims could not be saved from default
because he did not show prejudice. The Sixth Circuit’s
decision is based on an incorrect application of the legal
standard.

15
To show that a Certificate of Appealability should
issue under 28 U.S.C. § 2253(c), Underwood need only
make a substantial showing that jurists of reason could
disagree with the District Court’s resolving his
constitutional claims. See Miller-El v. Cockrell, 537
U.S. 322 (2003). Courts of Appeal ask only if the
District Court’s decision was debatable. Id.; see also
Bradshaw v. Estelle, 463 U.S. 880, 893 n.4 (1983). A
determination related to a Certificate of Appealability
is a separate proceeding, one distinct from the
underlying merits. See Miller-El, 537 U.S. at 342, citing
Slack v. McDaniel, 529 U.S. 473, 481 (2000).
To cross this low threshold, Underwood need not
show that his “appeal will succeed,” and the Sixth
Circuit should not deny him a certificate of
appealability just because the court might believe he
will not show he is entitled to relief under § 2254. See
Miller-El, 537 U.S. at 337. Underwood needed only to
demonstrate “a substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2).
Instead, the Sixth Circuit repeatedly rejected
Underwood’s claims based on its determination that
the claims would not succeed on appeal. App. 2a-6a.
As such, this Court should grant Underwood’s petition
for writ of certiorari to rectify the lower court’s
erroneous analysis of his Martinez v. Ryan claims.
According to Lawrence v. Chater, 516 U.S. 163, 167
(1996), when there is a reasonable probability that the
decision to deny the certificate of appealability rests
upon a premise that the lower court would reject if
given the opportunity for further consideration and
where it appears that such a redetermination may

16
decide the ultimate outcome of the litigation, then the
petition may be granted, and the judgment vacated and
remanded to consider if Martinez v. Ryan gives “cause”
to excuse the procedural default. This question was
addressed in the District Court, but the application for
a certificate of appealability failed, without
explanation, to consider that Petitioner’s Martinez v.
Ryan claims constituted a denial of a constitutional
right. In addition, Miller-El v. Cockrell, 537 U.S. 322
(2003) describes the standards for denying a certificate
of appealability. Pursuant to Miller-El a certificate of
appealability should be granted when a substantial
showing can be made “by demonstrating that jurists of
reason could disagree with the District Court’s
resolution … or that jurists could conclude the issues
presented are adequate to deserve encouragement to
proceed further.” The District Court erred in failing to
provide such analysis when it denied Petitioner’s
certificate of appealability. The Sixth Circuit placed a
heavy burden on Petitioner that did not follow the
procedures of 28 U.S.C. § 2253(c)(2). According to the
Sixth Circuit the Petitioner the Petitioner failed to
make the ultimate showing that his claim is
meritorious. However, this does not logically mean that
the Petitioner failed to make a preliminary showing
that his claim was debatable. Thus, when a reviewing
court-(like the Sixth Circuit)-inverts the statutory
order of operations and ‘first decides the merits of an
appeal, . . . then justifies its denial of a COA based on
its adjudication of the actual merits,’ it has placed too
heavy a burden on the prisoner at the COA
stage. Miller-El, 537 U. S., at 336–337. Miller-El flatly
prohibits such a departure from the procedure
prescribed by § 2253.

17
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
ROBERT L. SIRIANNI, JR.
Counsel of Record
BROWNSTONE, P.A.
P.O. Box 2047
Winter Park, Florida 32790
(407) 388-1900
robertsirianni@brownstonelaw.com
Counsel for Petitioner
December 2019

